MARCH 15, 2011
  AUDIT REPORT




                                                      OFFICE OF AUDITS




           PREPARING FOR THE SPACE SHUTTLE
               PROGRAM’S RETIREMENT:

 REVIEW OF NASA’S CONTROLS OVER PUBLIC SALES
          OF SPACE SHUTTLE PROPERTY




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-11-016 (ASSIGNMENT NO. A-09-018-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CEA          Center Export Administrator
C.F.R.       Code of Federal Regulations
EAR          Export Administration Regulations
FMR          Federal Management Regulation
FY           Fiscal Year
GSA          General Services Administration
ISS          International Space Station
ITAR         International Traffic in Arms Regulations
NPD          NASA Policy Directive
NPR          NASA Procedural Requirements
OIG          Office of Inspector General
OMB          Office of Management and Budget
PDO          Property Disposal Officer
U.S.C.       United States Code


                                                         REPORT NO. IG-11-016
MARCH 15, 2011




                                                                                             OVERVIEW

                          PREPARING FOR THE SPACE SHUTTLE
                              PROGRAM’S RETIREMENT:
          REVIEW OF NASA’S CONTROLS OVER PUBLIC SALES OF
                      SPACE SHUTTLE PROPERTY

                                                                                               The Issue

  The Space Shuttle Program – whose first mission was flown in 1981 and whose last is
  scheduled for later this year – employs about 14,600 civil service and contractor
  personnel, occupies over 654 facilities, and includes more than 1.2 million line items of
  personal property. 1 NASA has been planning for the retirement of the Space Shuttle
  Program since 2004, and the scope of work involved is one of the largest such efforts ever
  undertaken by the Agency. Much of the Shuttle property will be donated to museums,
  schools, and other parties; transferred to other Federal agencies; or sold to the public
  through the General Services Administration (GSA).

  To manage the disposal of this unprecedented amount of personal property, in November
  2008 NASA submitted to Congress a “Space Shuttle Program Transition and Retirement
  Personal Property Disposition Plan.” The Plan states that in disposing of Space Shuttle
  property NASA will follow all laws and regulations, including the Department of State’s
  International Traffic in Arms Regulations (ITAR) and the Department of Commerce’s
  Export Administration Regulations (EAR), which are intended to prevent unauthorized
  export of controlled technology. The Plan further recognizes that “[s]ome items [of
  Space Shuttle Program personal property] may not be able to be released from NASA to
  the public, or may need to be substantially modified or even destroyed to prevent release
  of export controlled information.” Although NASA does not know with certainty how
  much Space Shuttle personal property is export controlled, in December 2009 the Space
  Shuttle Main Engine Project – just one of the many projects under the Space Shuttle
  Program – completed an assessment that found 93 percent of its personal property is
  export controlled (117,380 out of 125,981 line items). Accordingly, NASA should expect



  1
      Each line item of personal property as recorded by NASA may contain multiple pieces of equipment,
      materials, or supplies. For example, one line of bolts may equate to dozens of bolts. Personal property
      includes equipment, materials, and supplies, and ranges from common parts to complex tooling and Space
      Shuttle Program flight hardware. Personal property excludes real property such as land and facilities that
      NASA owns, leases, or otherwise manages. For the purposes of this report, the terms “property” and
      “personal property” are used interchangeably.



REPORT NO. IG-11-016
                                                                                                    OVERVIEW



     that a significant amount of Space Shuttle-related property will be subject to export
     control laws.

     Consequently, NASA must institute proper controls to prevent the improper release of
     NASA’s export-controlled information and property. In October 2008, the Department of
     Justice reported that efforts to illegally obtain U.S. technology are on the rise. In fiscal
     years (FYs) 2007 and 2008, the Department charged 255 defendants with criminal
     violations of U.S. export control laws, including an indictment related to the export of
     Space Shuttle technology.

     This audit by the NASA Office of Inspector General (OIG) reviewed NASA’s controls
     over the disposition of Space Shuttle Program property. In particular, we focused on the
     vulnerabilities created when Space Shuttle property is sold to the public. During the
     audit, we found significant weaknesses in NASA’s sanitization and disposal processes for
     Space Shuttle-related information technology equipment – weaknesses that put the
     Agency at risk of releasing sensitive information and violating Federal laws and
     regulations protecting such information. Because of the time-sensitive nature of these
     issues, we immediately reported our findings to the Agency and on December 7, 2010,
     publicly issued a separate report detailing those findings. 2 As part of our broader audit of
     the disposition of all Shuttle-related property, we also reviewed the management of funds
     received from the sale of Space Shuttle Program property. Because a significant amount
     of Space Shuttle property is located at and will be disposed of by personnel from the
     Kennedy and Johnson Space Centers, we conducted most of our work at these two
     Centers. Details of the audit’s scope and methodology are included in Appendix A.

     Results

     NASA Risks Unauthorized Release of Export-Controlled Space Shuttle Property.
     We found that NASA had not fully integrated its export control and property disposition
     processes to reduce the risk that public sales of Space Shuttle property could result in the
     prohibited release of export-controlled items and technology. This occurred because the
     Agency did not fully recognize how the domestic sale of Space Shuttle property could
     result in an export. Moreover, NASA’s policies do not include the internal controls
     necessary to fully protect export-controlled property from unauthorized release. 3

     For example, NASA’s primary property disposition policy does not require property
     disposal personnel to ensure that:
           •    property marked for sale to the public has undergone an export control review;

     2
         “Preparing for the Space Shuttle Program’s Retirement: A Review of NASA’s Procedures for the
         Disposition of Information Technology Equipment” (IG-11-009, December 7, 2010). Accessible online at
         http://oig.nasa.gov/audits/reports/FY11/IG-11-009.pdf.
     3
         In particular, NASA Procedural Requirements (NPR) 2190.1, “NASA Export Control Program -
         Revalidated w/changes February 1, 2007.”



ii                                                                                    REPORT NO. IG-11-016
OVERVIEW



        •   individuals seeking to purchase export-controlled property are not foreign
            persons; or
        •   potential buyers have not been denied export privileges by the Department of
            State or the Department of Commerce. 4

  The unprecedented amount of Space Shuttle property expected to flow through NASA
  Centers’ property disposal systems in the coming years requires a heightened awareness
  of the risk of inappropriately releasing protected technologies. Although we did not
  identify any examples of unauthorized release of export-controlled Space Shuttle
  property, our related December 2010 report examining Agency procedures to dispose of
  information technology equipment found that NASA had been preparing to sell a laptop
  that contained information subject to ITAR restrictions. In addition, we believe
  opportunities exist for NASA to strengthen the relationship between the Agency’s
  property disposition and export control processes, which could reduce the risk of
  unauthorized individuals gaining access to export-controlled Space Shuttle property. As
  a result of our audit, NASA has already begun working with GSA to improve controls
  over public sales of Space Shuttle property, which should help prevent unauthorized
  releases.

  NASA Forfeited Proceeds from Sales of Space Shuttle Property. In FYs 2008 and
  2009, NASA collected over $185,000 in proceeds from the sale of Space Shuttle Program
  property. However, due to ineffective management by the Office of the Chief Financial
  Officer and the Exploration Systems Mission Directorate’s Resources Management
  Office, NASA had to forfeit the money to the U.S. Treasury rather than use it for NASA
  programs. Although the Office of the Chief Financial Officer issued two new Financial
  Management Operating Procedures to ensure that the proceeds from Space Shuttle
  property sales would be used to purchase replacement property by the Exploration
  Systems Mission Directorate, NASA did not obligate the funds within the necessary
  timeframe to avoid forfeiture, nor did Agency officials seek a waiver to extend this
  timeframe. In NASA’s current budget environment, the Agency can ill afford to forgo
  funds available for its use. NASA received $273,095 from Space Shuttle property sold in
  FY 2010, and proceeds from such sales will only increase in the coming years. The
  Agency must improve its management of these proceeds or risk forfeiting them as well.

  Other Matters of Interest. During the audit, we noted the improper sale or exchange of
  $28,802 of mostly non-Space Shuttle related property. The Federal Management
  Regulation (FMR) lists several categories of property, such as clothing and firefighting
  equipment, that may not be sold or exchanged unless the cognizant agency requests and
  receives a waiver from GSA. The FMR further states that under no circumstances will
  GSA grant waivers for the sale or exchange of weapons. However, we identified sales
  and exchanges of prohibited property without waivers at Kennedy, Johnson, and Stennis

  4
      NPR 4300.1A, “NASA Personal Property Disposal Procedural Requirements (Revalidated 2/17/06 with
      Change 1).”



REPORT NO. IG-11-016                                                                                    iii
                                                                                        OVERVIEW



     Space Centers and an exchange of weapons at the White Sands Test Facility. When we
     informed Agency officials, they initiated procedures to prevent prohibited items from
     being sold through GSA without the required waivers. As a result, we are not making any
     formal recommendations relating to this issue. However, we believe that NASA should
     monitor the sale and exchange of prohibited items and follow up on the corrective actions
     taken to ensure these types of transactions do not occur in the future.

     Management Action

     We recommended that the Assistant Administrator for Strategic Infrastructure coordinate
     with the Associate Administrator for International and Interagency Relations and revise
     NPR 4300.1A to explain how property disposition activities, including NASA’s domestic
     property sales coordinated through GSA, can result in a violation of export control laws.
     In addition, the revision should require that responsible property disposal and export
     control personnel coordinate to ensure that export determinations are made, buyer
     citizenship is verified, and buyer identities are compared with lists of individuals who
     have been denied export privileges by the Department of State or the Department of
     Commerce.

     Further, the Associate Administrator for International and Interagency Relations should
     revise NPR 2190.1 to explain how NASA’s domestic sale of property may result in
     exports and require a review of Centers’ export-controlled property disposition activities
     during annual Export Control Program audits. We also recommended that the Center
     Directors at Kennedy and Johnson clarify Center-specific property disposition and export
     control policies to reflect the recommended revisions to NPR 4300.1A and NPR 2190.1.
     Finally, we recommended that the Office of the Chief Financial Officer determine how
     much of the FY 2010 sales proceeds remain unobligated and proactively coordinate with
     the Exploration Systems Mission Directorate’s Resources Management Office to make
     timely use of the funds.

     The Assistant Administrator for Strategic Infrastructure concurred with our
     recommendation to work with the Office of International and Interagency Relations to
     revise NPR 4300.1A in a manner that will help integrate NASA’s disposition and export
     control processes. Management’s proposed actions are responsive and meet the intent of
     the recommendation.

     Although management concurred with the recommendation to update NPR 2190.1, the
     comments also stated that the existing procedure is clear and recognizes that exports can
     occur within the United States. Management also concurred with our recommendation to
     update the guidance for the annual Export Control Program audit; however, the response
     implied that NASA’s January 12, 2011, update to the guidance met the intent of the
     recommendation. Our recommendation is intended to more fully integrate NASA’s
     disposition and export control processes and we believe that Agency auditors should take
     additional steps to track export-controlled items further into the disposition process.


iv                                                                         REPORT NO. IG-11-016
OVERVIEW



  Therefore, we find management’s response to be inadequate and the recommendation
  remains unresolved.

  Management concurred with the recommendations to clarify Center-level disposition and
  export guidance at Kennedy and Johnson, stating that the corrective action will be
  completed within 90 days of the Agency guidance being updated. Management’s
  proposed actions are responsive to the intent of the recommendations.

  The Office of the Chief Financial Officer concurred with the recommendation related to
  the forfeiture of exchange and sale proceeds and said it plans to have corrective action
  completed by September 30, 2011. Management’s proposed actions are responsive to the
  intent of the recommendation. The Office of the Chief Financial Officer also requested
  that we revise the report by attributing the forfeiture of exchange/sale proceeds to
  “untimely and less-than-effective communication” instead of a “lack of knowledge of
  procedures.” However, we disagree that the proceeds were forfeited solely due to
  ineffective communication and, accordingly, declined to make the requested revision.




REPORT NO. IG-11-016                                                                         v
MARCH 15, 2011




                                                          CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 3

  RESULTS
      NASA Risks Unauthorized Release of Export-Controlled Space
        Shuttle Property Because Export Control and Property
        Disposition Processes Are Not Fully Integrated ____________ 4
      NASA Forfeited Proceeds from Sales of
        Space Shuttle Property _____________________________ 12
      Other Matters of Interest ______________________________ 17

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls ____________________________ 23
      Prior Coverage ______________________________________ 23

  APPENDIX B
      Management Comments ______________________________ 24

  APPENDIX C
      Report Distribution ___________________________________ 29




REPORT NO. IG-11-016
MARCH 15, 2011




                                                                                INTRODUCTION


Background

  In January 2004, President Bush directed NASA to end the Space Shuttle Program once
  construction of the International Space Station (ISS) had been completed. As of February
  2011, the final Space Shuttle flight is scheduled to take place in June 2011.

  Retirement of the Space Shuttle Program poses a number of challenges for NASA,
  including the disposition of over 1.2 million associated line items of property. Originally,
  500,000 of these items were expected to be used by NASA’s Constellation Program and
  the remaining 700,000 were expected to enter the Centers’ property disposal systems
  between fiscal years (FYs) 2010 and 2013. However, cancellation of the Constellation
  Program may result in a significant number of additional items entering the disposal
  chain. 5 As this “bow wave” of property enters their disposal systems, the Centers plan to
  use their standard property disposition processes, which allow for donating the property
  to museums, schools, or other eligible parties; transferring the property to other Federal
  agencies; abandoning and/or destroying the property; or selling the property to the public
  in partnership with the General Services Administration (GSA).

  Memorandum of Agreement with GSA. GSA’s mission is to streamline the
  administrative work of the Federal Government by performing services, such as sales of
  property, for agencies like NASA. GSA auctions property to the public through a GSA-
  hosted website that provides for competitive bidding and online payment. GSA retains a
  percentage of the sales proceeds as payment for its services and remits the remainder of
  the proceeds to the agency.

  In accordance with a February 2008 Memorandum of Agreement with NASA, GSA is
  responsible for handling the sale of NASA property, including Space Shuttle-related
  property. Under the agreement, NASA receives 90 percent of the proceeds associated
  with the sale of Space Shuttle-related property and GSA retains 10 percent as a fee for its
  services.

  Export Control Laws and Regulations. Disposition of all Space Shuttle property,
  including disposition through GSA sales, must comply with applicable laws and
  regulations, to include the Department of State’s International Traffic in Arms
  Regulations (ITAR) and the Department of Commerce’s Export Administration
  5
      The Constellation Program was NASA’s next generation human space flight program intended to achieve
      the goals laid out in President Bush’s “Vision for U.S. Space Exploration,” which was released in
      January 2004. In President Obama’s proposed FY 2011 budget the Constellation Program was defunded,
      and the NASA Authorization Act of 2010 directed NASA to develop a new multipurpose crew vehicle
      and space launch system.



REPORT NO. IG-11-016                                                                                        1
                                                                                                        INTRODUCTION



    Regulations (EAR). In accordance with the Arms Export Control Act of 1976 (Public
    Law 94-329), ITAR governs the export of defense-related materials and makes it
    unlawful to transfer controlled items or technology to foreign persons without consent
    from the Department of State. The Export Administration Act of 1979 (Public Law
    96-72) is the statutory authority for the EAR, which governs the export of commercial
    items, including those with potential military use. The EAR makes it unlawful for an
    entity such as NASA to provide EAR-controlled technology or software to foreign
    persons without the consent of the Department of Commerce. In addition, both the
    Departments of State and Commerce maintain lists of individuals who NASA should
    preclude from acquiring its export-controlled items. 6

    NASA generally does not make determinations regarding the export control status of its
    property until the property has been deemed ready for disposition. Accordingly, at this
    time NASA does not know with certainty how much Space Shuttle personal property is
    export controlled. Nevertheless, the Agency should expect that a significant amount of
    Shuttle property is subject to export control restrictions. For example, technology such as
    blueprints, plans, diagrams, engineering designs, and specifications for spacecraft systems
    and subsystems and all associated equipment, components, and parts are considered
    defense-related materials and are subject to ITAR export restrictions. 7 In addition,
    technology and software not related to spacecraft systems and subsystems and not subject
    to ITAR are subject to EAR export restrictions. As an illustration of the extent of
    controlled materials, the Space Shuttle Main Engine Project completed a property
    assessment in December 2009 in anticipation of the Space Shuttle Program’s retirement
    and found that 93 percent of its personal property (117,380 out of 125,981 line items) is
    ITAR-controlled.

    Federal Management Regulation. NASA must ensure that it effectively manages
    proceeds from sales of Space Shuttle Program personal property. The exchange/sale
    authority established by the Federal Management Regulation (FMR) and implemented by
    GSA permits an agency to exchange or sell non-excess, non-surplus personal property
    and apply the proceeds in whole or in part toward the acquisition of similar property. 8
    The FMR states that an agency must use the proceeds for the purchase of replacement
    property either in the fiscal year in which the property was sold or in the following fiscal
    year, unless the agency seeks and obtains the necessary waiver to extend these
    timeframes. Otherwise, the agency loses the rights to the sale proceeds and instead must

    6
        The Department of State’s debarred parties list includes individuals who are barred by ITAR from
        participating directly or indirectly in the export of defense articles, including technical data, or furnishing
        of defense services for which a license or approval is required. The Department of Commerce’s denied
        persons list includes individuals and entities that have been denied export privileges.
    7
        ITAR Part 121, United States Munitions List, Category IV (Launch Vehicle) and Category XV
        (Spacecraft Systems and Associated Equipment).
    8
        The use of funds obtained through the exchange and sale of non-excess, non-surplus property is addressed
        in Title 41, Code of Federal Regulations (C.F.R.), Part 102-39, “Replacement of Personal Property
        Pursuant to the Exchange/Sale Authority.” Different regulations govern the sale of property that agencies
        identify as excess or surplus and proceeds from such sales must be remitted to the U.S. Treasury.



2                                                                                              REPORT NO. IG-11-016
INTRODUCTION



  send the funds to the U.S. Treasury. NASA originally intended to use proceeds from the
  sale of Space Shuttle Program property to purchase new property for the Constellation
  Program.

  Space Shuttle Program Property Disposition Plan. NASA’s “Space Shuttle Program
  Transition and Retirement Personal Property Disposition Plan,” November 2008,
  identifies both disposal of export-controlled property and management of funds received
  from the sale of property as a priority and a challenge for the Program. Specifically, the
  Plan states, “For disposition of Space Shuttle property, Agency-level coordination and
  planning is essential to ensure comprehensive asset management and . . . to achieve . . .
  recovery of fair market value from items offered for sale, and compliance with . . . export
  control requirements.”


Objectives

  Our overall objective was to determine whether NASA had implemented effective
  controls over Space Shuttle Program personal property disposition. Specifically, we
  reviewed:

      •   the vulnerabilities associated with selling Space Shuttle property to the public and

      •   NASA’s management of sale proceeds.

  We previously issued a separate report, “Preparing for the Space Shuttle Program’s
  Retirement: A Review of NASA’s Procedures for the Disposition of Information
  Technology Equipment” (IG-11-009, December 7, 2010), detailing the weaknesses we
  found in NASA’s sanitization and disposal processes for Space Shuttle-related
  information technology equipment.

  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




REPORT NO. IG-11-016                                                                             3
                                                                                                       RESULTS




                                     NASA RISKS UNAUTHORIZED RELEASE OF
                                        EXPORT-CONTROLLED SPACE SHUTTLE
                                    PROPERTY BECAUSE EXPORT CONTROL AND
                                      PROPERTY DISPOSITION PROCESSES ARE
                                                    NOT FULLY INTEGRATED

               We found that NASA had not fully integrated its export control and property
               disposition processes to minimize the risk of public sales resulting in the transfer
               of export-controlled Space Shuttle property to unauthorized individuals. This
               occurred because the Agency did not fully recognize how domestic property sales
               may result in an export and, therefore, did not include in its policies the internal
               controls necessary to fully protect export-controlled property from unauthorized
               release. Although we did not identify examples of unauthorized release of export-
               controlled Space Shuttle property during this audit, we previously found that
               NASA was preparing to sell a laptop that contained ITAR-restricted information. 9
               We believe that NASA must take steps to strengthen its property disposition and
               export control processes to reduce the risk of unauthorized access to NASA’s
               controlled technologies.


NASA’s Export Control and Property Disposal Requirements

    NASA policies establish requirements, roles, and responsibilities for managing the
    Agency’s export-controlled assets and disposal of personal property. For example,
    NASA’s Office of International and Interagency Relations has Agency-level
    responsibility for the Export Control Program. NASA’s Logistics Division, within the
    Office of Strategic Infrastructure, has Agency-level responsibility to ensure Centers
    comply with the Agency property disposition policy. NASA policy requires each Center
    Director to appoint a Center Export Administrator (CEA) to serve as the Center’s resident
    expert on export control matters and to ensure compliance of all Center activities with
    U.S. export control laws and regulations. NASA policy also requires each Center
    Director to appoint a Property Disposal Officer (PDO) to ensure compliance with Agency
    property disposal requirements.

    The CEA and PDO should work together to ensure that the Center disposes of export-
    controlled personal property in a manner that complies with Federal laws and prevents
    unauthorized release of controlled technology. We found that NASA’s export control and
    property disposition processes were not sufficiently integrated to ensure that unauthorized

    9
        As reported in “Preparing for the Space Shuttle Program’s Retirement: A Review of NASA’s Procedures
        for the Disposition of Information Technology Equipment” (IG-11-009, December 7, 2010), accessible at
        http://oig.nasa.gov/audits/reports/FY11/IG-11-009.pdf.



4                                                                                      REPORT NO. IG-11-016
RESULTS



  individuals could not purchase export-controlled Space Shuttle property. See
  Appendix A for a listing of applicable Agency- and Center-level requirements, policies,
  and procedures.


Export Control and Property Disposition Processes Were Not Fully
  Integrated

  Federal law makes it is unlawful to transfer export-controlled property to (1) foreign
  persons without authority or license from the Departments of State or Commerce or
  (2) any person (including a U.S. citizen) who has been prohibited from receiving such
  property by these Departments. However, we found that NASA had not fully integrated
  its export control and property disposition processes to reduce the risk that export-
  controlled Space Shuttle property would be sold illegally. Specifically, we found that
  there were missed opportunities to strengthen the relationship between the export control
  and property disposition processes at Kennedy and Johnson Space Centers.

  For example, although the PDOs at Kennedy and Johnson generally request the CEAs to
  review property and determine if export control restrictions apply to the property’s
  disposition, we found that no one involved in the disposition process verified that buyers
  of export-controlled property were U.S. citizens. Nor did anyone compare buyer
  identities with the lists maintained by the Departments of State and Commerce to
  determine whether buyers were eligible to receive export-controlled property. Without
  performing such verifications, there is no way to ensure that NASA does not sell export-
  controlled Space Shuttle property in violation of export control laws.

  In addition, although NASA’s Export Control Program requires annual audits of Center-
  level export control activities to identify weaknesses and export control vulnerabilities,
  we found this process was ineffective in ensuring that export-controlled Space Shuttle
  property disposed of through a GSA sale was properly protected. The audits did not
  review the Centers’ property disposition activities and processes or consider how a public
  sale of property may have export control implications. Annual Export Control Program
  audits do include thorough reviews of the Centers’ overseas shipments and traditional
  exports, including a review to ensure that the Centers routinely check debarred parties and
  denied persons lists prior to shipping items. However, the audits did not include a review
  of the Centers’ public sales of export-controlled property.


Agency- and Center-Level Policies Lacked Controls Necessary to
  Fully Protect Export-Controlled Property

  Personnel at Kennedy and Johnson who were responsible for either export control or
  property management procedures told us that they believed that NASA’s domestic sales
  of Space Shuttle Program personal property were not considered exports because they


REPORT NO. IG-11-016                                                                            5
                                                                                                   RESULTS



    occurred within the United States and that, therefore, export control regulations were not
    an issue in such sales. However, NASA’s definition of an export includes anything
    transferred to a foreign person or foreign destination by any means and originating from
    any location. In addition, both the ITAR and EAR specify that the sale or transfer of
    property to a foreign person, even when it occurs in the United States, is an export if the
    property is on the United States Munitions List or is otherwise protected technology or
    software. Therefore, domestic sales of export-controlled Space Shuttle property may
    constitute an export, and the sale of such property without the proper export license or
    approval by the Departments of State or Commerce is prohibited.

    Because NASA did not fully recognize and document that the Agency’s domestic sale of
    Space Shuttle property may result in an export, NASA’s policies do not include the
    internal controls necessary to properly protect export-controlled Space Shuttle property
    sold by GSA on NASA’s behalf.

    Agency-Level Policies. NASA’s primary Agency-level property disposition policy does
    not require that PDOs ensure that:

           •   property marked for sale to the public has undergone an export control review;

           •   individuals seeking to purchase export-controlled property through a GSA sale are
               U.S. citizens; or

           •   buyer identities are compared with the Department of State’s debarred parties list
               and the Department of Commerce’s denied persons list. 10

    During the audit, we learned that NASA is revising NPR 4300.1A to include a
    requirement that buyers of export-controlled property self-certify that they are U.S.
    citizens. However, NASA does not plan to require that the identities of prospective
    buyers be checked against the Departments of State and Commerce lists.

    NASA’s export control policy states that an export can occur when technical data is
    disclosed to a foreign national by physical, electronic, oral, or visual means within or
    outside of the United States. 11 However, the policy does not make clear that an export
    can occur as a result of a domestic sale of property through the disposition process and
    does not set forth procedures relating to NASA’s domestic property sales.

    Center-Level Policies. We identified several ways in which the Centers can strengthen
    their policies to prevent the unauthorized release of export-controlled property.



    10
         NASA Procedural Requirements (NPR) 4300.1A, “NASA Personal Property Disposal Procedural
         Requirements (Revalidated 2/17/06 with Change 1).”
    11
         NPR 2190.1, “NASA Export Control Program - Revalidated w/changes February 1, 2007.”



6                                                                                  REPORT NO. IG-11-016
RESULTS



          Kennedy Policies. Kennedy did not finalize a Center-level property disposition
  policy until October 2010, 6 years after President Bush’s 2004 directive to end the Space
  Shuttle Program upon completion of the ISS. Moreover, neither this disposition policy
  nor Kennedy’s export control policy includes internal controls that we believe are
  necessary to prevent unauthorized release of export-controlled items. 12 Both policies
  require the CEA to review a list of property marked for disposal and identify export-
  controlled items. However, neither policy contains guidance regarding how any items
  identified by the CEA are to be disposed of in accordance with export control laws and
  regulations. Additionally, neither policy requires disposal or export control personnel to
  ensure that U.S. citizenship or buyer eligibility is verified when export-controlled
  property is sold through GSA.

           Johnson Policies. Johnson’s property disposition policy acknowledges that
  Center property should not be transferred, exported to a foreign national, or shipped
  outside of the United States without complying with all applicable export control laws
  and regulations. The policy also requires that export control representatives identify
  export-controlled property before it is declared available for sale. 13 However, the policy
  does not clearly explain who at the Center is responsible for requesting the export control
  review. Johnson’s CEA attempted to identify export-controlled property by reviewing a
  list of property scheduled for disposition. Although the CEA was able to determine from
  the list whether the property was subject to export control under the ITAR or EAR, the
  CEA stated that he could not always make a recommendation about the property’s
  suitability for release, transfer, export, or sale to a foreign person because the property
  listing did not contain the necessary level of detail.

          Johnson’s export compliance policy does not address how domestic sales of
  property may result in an export or clearly state when in the disposition process a
  determination of whether property is subject to export control should be made. 14 Inherent
  in the policy is the assumption that, to effect an export, property would be exported
  overseas. Moreover, like Kennedy’s policies, Johnson’s policies do not require disposal
  personnel, in coordination with the CEA, to ensure that buyers’ citizenship or eligibility
  to purchase export-controlled property is verified in accordance with the ITAR and EAR.




  12
       “Kennedy Space Center Personal Property Transfer/Excess Process,” KDP-KSC-P-3716, October 13,
       2010; “KSC Export Control Process,” KDP-KSC-P-2613, June 30, 2010.
  13
       Johnson Space Center Work Instruction 4300.1, “JSC Instructions for Excess and Disposal of
       Government Property,” September 28, 2009.
  14
       Johnson Space Center Work Instruction 2190.1, “JSC Export Compliance,” June 26, 2009.



REPORT NO. IG-11-016                                                                                   7
                                                                                                      RESULTS



NASA Faces Increased Risk of Unauthorized Release of Controlled
 Space Shuttle Technology

    As the “bow wave” of more than a million line items of property from the retirement of
    the Space Shuttle Program enters the Agency’s disposal systems, any weaknesses in
    NASA’s internal controls relating to property disposal and export control may provide
    opportunities for unauthorized access to NASA’s controlled technology.

    NASA’s need to dispose of this large amount of property coincides with increases in
    attempts by countries like China and Iran to illegally acquire U.S. technology. The
    Department of Justice reported that in FYs 2007 and 2008 it had charged 110 and 145
    defendants, respectively, with criminal violations of U.S. export control laws, including
    some charges related to the illegal export of Space Shuttle technology. 15 The Department
    of Justice noted that controlled technology was most often collected and sold to the
    highest bidder by foreign business people, scientists, and students who only began their
    illegal activities once they came to the United States and found that they had ready access
    to the technology in demand overseas.

    Although we did not identify examples of unauthorized release of export-controlled
    Space Shuttle property through a public GSA sale, we believe there is an increased risk
    that NASA’s controlled technologies may be obtained by unauthorized individuals given
    the weaknesses we identified in NASA policies.


Management Actions

    As a result of our audit, NASA began working with GSA to ensure that the online
    purchasing system GSA uses to publicly sell export-controlled Space Shuttle property
    will require buyers to provide citizenship information and certify at the point of purchase
    that export control laws and regulations are understood and will be followed. GSA is
    working with the Department of Homeland Security to develop a process to verify
    citizenship information provided by buyers before each online property purchase is
    completed. In March 2011, GSA’s Director, Sales Program Division, told us that by the
    end of June 2011 GSA expects to have access to the Department of Homeland Security’s
    database needed for such verifications.

    While NASA management’s prompt action and the planned improvements to GSA’s
    online purchasing system are steps in the right direction, we believe that NASA could
    further reduce the risk that controlled personal property will be improperly exported by
    requiring a check of the debarred parties list maintained by the Department of State and
    the denied persons list maintained by the Department of Commerce.

    15
         Department of Justice Press Release 08-958: “More Than 145 Defendants Charged in National Export
         Enforcement Initiative During Past Fiscal Year,” October 28, 2008.



8                                                                                     REPORT NO. IG-11-016
RESULTS



Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To fully integrate NASA’s property disposition and export control processes and reduce the
risk of improperly selling export-controlled property to the public, we made the following
recommendations.

Recommendation 1. a. The Assistant Administrator for Strategic Infrastructure should
coordinate with the Associate Administrator for International and Interagency Relations and
include in the planned revision of NPR 4300.1A a clear explanation of how NASA’s
property disposition activities, including domestic property sales, could result in a violation
of export control laws.

Recommendation 1.b. The Assistant Administrator for Strategic Infrastructure should
coordinate with the Associate Administrator for International and Interagency Relations and
include in the planned revision of NPR 4300.1A requirements that responsible property
disposal and export control personnel ensure that export control determinations are made
before property is disposed of and that the eligibility of potential buyers is verified prior to
releasing controlled items to them. At a minimum, verifying buyer eligibility should include
verifying citizenship and comparing identities with both the Department of State’s debarred
parties list and the Department of Commerce’s denied persons list prior to the sale of export-
controlled property.

   Management’s Response. The Assistant Administrator for Strategic Infrastructure
   concurred with the recommendation and agreed to work with the Office of International
   and Interagency Relations to revise NPR 4300.1A by highlighting the implications of
   inadvertently releasing export-controlled Government property to unauthorized
   individuals or entities and by clearly explaining the potential risk. NPR 4300.1A is
   currently under revision, and the Assistant Administrator for Strategic Infrastructure
   expects the revision to be completed by mid-March 2011; however, it will have to
   undergo a formal review process and likely will not be finalized until early in the fourth
   quarter of FY 2011. The Assistant Administrator for Strategic Infrastructure also stated
   that NASA surrenders to GSA its authority to determine the final disposition of
   Government property when NASA reports the property as Agency excess. Further, the
   Assistant Administrator stated that the process for vetting property for sale ultimately
   resides with GSA because GSA controls the sale of property. As such, the Office of
   Strategic Infrastructure is working with GSA to ensure that GSA’s online purchasing
   system has the capability to verify citizenship and compare buyer identities to the denied
   and debarred parties lists maintained by the Departments of State and Commerce,
   respectively. GSA is coordinating with the Department of Homeland Security to add this
   functionality to the online purchasing system, and the current schedule calls for
   implementation of these protocols by the third quarter of FY 2011. Until GSA’s online
   purchasing system has that capability, NASA Centers will be responsible for ensuring
   that the lists are reviewed prior to the release of property to the buyer.


REPORT NO. IG-11-016                                                                               9
                                                                                          RESULTS



     Evaluation of Management’s Response. Although the Assistant Administrator for
     Strategic Infrastructure stated that NASA surrenders its authority to determine the final
     disposition of Government property when the property is reported to GSA as excess,
     NASA remains the responsible party for ensuring that buyers of property are not foreign
     persons according to ITAR, EAR, and NASA regulations. However, we consider
     management’s proposal to work with GSA to reduce the risk that export-controlled
     Government property is released to unauthorized individuals or entities to be responsive
     to the intent of our recommendation. Accordingly, the recommendation is resolved and
     will be closed upon completion and verification of the proposed corrective actions.

Recommendation 2. The Associate Administrator for International and Interagency
Relations should revise NPR 2190.1 to explain how NASA’s domestic sales of property may
result in exports and to require a review of Centers’ export-controlled property disposition
activities during annual Export Control Program audits.

     Management’s Response. Management concurred with the recommendation, but
     asserted that NASA Policy Directive (NPD) 2190 and NPR 2190.1 already clearly state
     that transfers of export-controlled hardware or data to foreign persons anywhere,
     including in the United States, require export authority. Management’s comments also
     noted that the Office of International and Interagency Relations recently revised
     NPR 2190.1 to inform NASA program and project managers that they should (1) consult
     with the Headquarters Export Administrator and their Center Export Administrator to
     determine the export classification of items and (2) document that information in
     applicable property accountability records. The revised NPR 2190.1 should begin the
     formal review process by March 30, 2011. In addition, on January 12, 2011, the Office
     of International and Interagency Relations updated the guidance for the annual Export
     Control Program audit to require Export Control Program auditors to verify that Center
     Export Administrators and Center Export Representatives are consulted to determine the
     export control classification of NASA property to be disposed.

     Evaluation of Management’s Response. We do not find management’s comments fully
     responsive to the intent of the recommendation. Although we agree that NPD 2190 and
     NPR 2190.1 clearly state that an export can occur within the United States, the intent of
     the recommendation is to more fully integrate NASA’s property disposition and export
     control processes. NASA is currently revising NPR 2190.1 and plans to begin the formal
     review process by the end of March. We believe that including in the planned revision an
     explanation of how an export can occur during the property disposition process will help
     more fully integrate the export control and property disposition processes. Similar to the
     agreed-upon revision to NPR 4300.1A, the revision to NPR 2190.1 should highlight the
     implications of inadvertently releasing export-controlled Government property to
     unauthorized individuals or entities and should clearly explain the potential risk.

     In addition, we acknowledge that having Center Export Administrators and Center Export
     Representatives identify export-controlled property prior to disposition is a good first



10                                                                          REPORT NO. IG-11-016
RESULTS



  step. However, we believe that NASA Export Control Program annual audits should
  include additional steps to test controls over the disposition of the items that were
  identified as export-controlled by responsible export control personnel. The additional
  steps should help ensure that unauthorized individuals or entities are unable to acquire
  NASA export-controlled property during public sales. For these reasons, we consider this
  recommendation unresolved.

Recommendation 3. The Director, Kennedy Space Center, should clarify KDP-KSC-P-
3716 and KDP-KSC-P-2613 to reflect the recommended revisions to NPR 4300.1A and
NPR 2190.1.

  Management’s Response. Management concurred with the recommendation and stated
  that KDP-KSC-P-3716 and KDP-KSC-P-2613 will be clarified to reflect the changes to
  NPR 4300.1A and NPR 2190.1 within 90 days of their release.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive. The recommendation is resolved and will be closed upon completion and
  verification of management’s corrective actions.

Recommendation 4. The Director, Johnson Space Center, should clarify Johnson Space
Center Work Instruction 4300.1 and Johnson Space Center Work Instruction 2190.1 to
reflect the recommended revisions to NPR 4300.1A and NPR 2190.1.

  Management’s Response. Management concurred with the recommendation and stated
  that Johnson Space Center Work Instruction 4300.1 and Johnson Space Center Work
  Instruction 2190.1 will be clarified to reflect the changes to NPR 4300.1A and
  NPR 2190.1 within 90 days of their release.

  Evaluation of Management’s Response. Management’s proposed actions are
  responsive. The recommendation is resolved and will be closed upon completion and
  verification of management’s corrective actions.




REPORT NO. IG-11-016                                                                         11
                                                                                          RESULTS




                            NASA FORFEITED PROCEEDS FROM SALES OF
                                          SPACE SHUTTLE PROPERTY

            In FYs 2008 and 2009, NASA collected $185,718 in proceeds from the sale of Space
            Shuttle Program personal property. However, due to a lack of knowledge of
            procedures and ineffective management of the funds by the Office of the Chief
            Financial Officer and the Exploration Systems Mission Directorate’s Resources
            Management Office, NASA had to forfeit these funds to the U.S. Treasury instead of
            using them for NASA programs. NASA received $273,095 in proceeds from Space
            Shuttle property sold in FY 2010 and has until the end of FY 2011 to use these funds
            or to obtain a waiver permitting their use beyond that date.


NASA’s Use of the Exchange/Sale Authority

     As previously discussed, the FMR, implemented and administered by GSA, establishes
     the authority for agencies to exchange or sell non-excess, non-surplus property and apply
     the proceeds in whole or in part toward the acquisition of similar property. In accordance
     with the provisions of the FMR, NASA was required to use the proceeds from GSA sales
     of Space Shuttle personal property to purchase replacement property either in the fiscal
     year in which the property was sold or in the following fiscal year, unless the Agency
     sought and obtained from GSA a waiver to this requirement. Otherwise, the Agency
     would lose the rights to the proceeds and would be required to send the funds to the U.S.
     Treasury. NASA’s intention was to use proceeds from sales of Space Shuttle property to
     purchase new property for the Constellation Program.

     To assist NASA’s financial management community with managing the proceeds from
     GSA sales of Space Shuttle property and to ensure standard and consistent methods of
     processing, reporting, and reviewing financial data, NASA’s Financial Management
     Division wrote and published two Financial Management Operating Procedures
     specifically for Space Shuttle Program exchange/sales:

        •   NASA Financial Management Operating Procedure 9250.1-P01-A, “Exchange
            Sales of Space Shuttle Program Property Prior to October 1, 2009,” August 7,
            2009; and

        •   NASA Financial Management Operating Procedure 9250.1-P02-A, “Exchange
            Sales of Space Shuttle Program Property,” October 1, 2009.

     The new procedures notwithstanding, NASA did not make timely use of the sales
     proceeds and had to forfeit to the U.S. Treasury 100 percent of the proceeds collected in
     FYs 2008 and 2009 (see Table 1 for proceeds by fiscal year).



12                                                                          REPORT NO. IG-11-016
RESULTS



NASA Forfeited Exchange/Sale Proceeds to the U.S. Treasury

  Instead of using the proceeds from the sale of Space Shuttle Program property to offset
  costs of the Constellation Program as it had intended, NASA forfeited the $185,718 it
  obtained in FYs 2008 and 2009 as a result of sales conducted at Kennedy, Johnson,
  Marshall Space Flight Center, and Stennis Space Center. NASA has until the end of
  FY 2011 either to use the $273,095 in proceeds from sales that took place during
  FY 2010 or to obtain a waiver permitting their use beyond that date.

                               Table 1. Space Shuttle Program
                                  Exchange/Sale Proceeds

          Center          FY 2008         FY 2009           FY 2010           Total
          Kennedy          $4,518         $ 94,174          $ 55,995      $ 154,687
          Johnson               0           72,280           195,233        267,513
          Marshall              0           14,466            17,605         32,071
          Stennis               0              280             4,262          4,542
           Total           $4,518         $181,200          $273,095       $458,813


  Kennedy was the first Center to conduct a Space Shuttle Program exchange/sale and
  collected $4,518 in FY 2008. As stipulated in the FMR, NASA had to either obligate
  these funds by the end of FY 2009, seek a waiver from GSA, or forfeit the funds to the
  U.S. Treasury. Because the funds had not yet been obligated toward the acquisition of
  similar property within the Constellation Program and NASA did not seek the necessary
  waiver, just prior to the end of FY 2009, the Office of the Chief Financial Officer
  informed Kennedy’s finance office that the proceeds from FY 2008 could not be used.
  As a result, Kennedy transferred the funds to miscellaneous receipts and ultimately
  forfeited the $4,518 to the U.S. Treasury at the end of FY 2009.

  Kennedy, Johnson, Marshall, and Stennis conducted Space Shuttle Program
  exchange/sales in FY 2009. In order to retain these funds, NASA had to either obligate
  the proceeds from these sales by the end of FY 2010 or seek a waiver from GSA. Just
  prior to the end of FY 2010, the Office of the Chief Financial Officer and Exploration
  Systems Mission Directorate’s Resource Managements Office attempted to coordinate
  and quickly obligate the proceeds. However, their efforts were unsuccessful, a waiver
  was not pursued, and, ultimately, the funds were forfeited to the U.S. Treasury at the end
  of FY 2010 (see the following timeline).




REPORT NO. IG-11-016                                                                           13
                                                                                      RESULTS




Management of Exchange/Sale Proceeds Was Ineffective

     A lack of knowledge of procedures and the ineffective management of the proceeds by
     the Office of the Chief Financial Officer and the Exploration Systems Mission
     Directorate’s Resources Management Office resulted in NASA forfeiting Space Shuttle
     Program exchange/sale proceeds for two consecutive years.

     As shown in the timeline, the Office of the Chief Financial Officer met with the
     Exploration Systems Mission Directorate on August 10, 2010, to begin discussing the use
     of the FY 2009 Space Shuttle Program exchange/sale proceeds. The Office of the Chief
     Financial Officer realized that those proceeds had not been included in the annual
     “Apportionment and Reapportionment Schedule” (Standard Form 132) submitted to the
     Office of Management and Budget (OMB). On September 17, 2010, less than 2 weeks
     from the end of the fiscal year, the Office of the Chief Financial Officer submitted an
     additional Standard Form 132 to OMB, requesting approval to use the $181,200 in
     FY 2009 proceeds. In accordance with OMB Circular No. A-11, “Preparation,
     Submission, and Execution of the Budget,” July 2010, agencies, including NASA, must
     submit a Standard Form 132 to OMB by August 21 of each fiscal year or within 10



14                                                                       REPORT NO. IG-11-016
RESULTS



  calendar days after the approval of the appropriation, whichever is later, to provide an
  estimate of the amount of proceeds the agency expects to make from the exchange/sale of
  property in the upcoming fiscal year. Once the form is approved by OMB, agencies can
  record the estimated amounts in their accounting systems. When the actual proceeds are
  received, the estimates are adjusted accordingly. NASA did not add the amount of the
  proceeds collected in FY 2009 to the estimate of what would be collected in FY 2010
  and, therefore, this amount was not appropriated for use in FY 2010. This resulted in
  NASA having to submit an additional Standard Form 132 just weeks before the end of
  the fiscal year. OMB approved the request on September 24, 2010, and NASA received
  the approval notification the following Monday (September 27, 2010), just 3 days before
  the end of the fiscal year.

  Concurrently with the Office of the Chief Financial Officer’s efforts to secure OMB
  approval to obligate the sale proceeds, the Exploration Systems Mission Directorate’s
  Resources Management Office tried to identify a need for the funds within the
  Constellation Program. With exactly 1 week left in the fiscal year, the Exploration
  Systems Mission Directorate’s Resources Management Office identified a Constellation
  project to which the money could be obligated. However, although the Office of the
  Chief Financial Officer learned of OMB approval on September 27, it did not notify the
  Exploration Systems Mission Directorate’s Resources Management Office of the
  approval until 2 days later, on September 29, 2010. By then it was too late to receive,
  record, and distribute the proceeds before September 30, 2010, the end of the fiscal year.

  Further, NASA’s Office of the Chief Financial Officer was unaware that it could have
  requested GSA to grant a waiver to the 2-year constraint on using exchange/sale
  proceeds. Had NASA requested and GSA approved a waiver, NASA could have retained
  the Space Shuttle Program exchange/sale proceeds from FYs 2008 and 2009 and used
  them toward the Constellation Program instead of having to forfeit the proceeds to the
  U.S. Treasury.


Action Is Needed to Avoid Forfeiture of Additional Proceeds

  NASA expended time and effort to establish and conduct GSA sales of Space Shuttle
  property. However, NASA failed to effectively manage FYs 2008 and 2009 proceeds to
  ensure they were used to meet NASA program needs. Although the Office of the Chief
  Financial Officer published two new Financial Management Operating Procedures to
  ensure proper management of GSA sales proceeds, it failed to disseminate or properly
  implement the procedures. The procedures include detailed guidance on the collection,
  accounting, use, and reporting of exchange/sale proceeds. Specifically, they discuss the
  funds and accounts that need to be established and used throughout the accounting
  process, as well as information on organizational responsibilities and a timetable of when
  certain tasks should be completed. The new procedures also include a section on periodic
  monitoring and internal controls.


REPORT NO. IG-11-016                                                                           15
                                                                                          RESULTS



     In NASA’s current budget environment, the use of the exchange/sale authority is a
     valuable tool for offsetting the cost of replacing Agency property. NASA received
     $273,095 in proceeds from Space Shuttle property sold in FY 2010. The Agency must
     improve its coordination, awareness, and management of these and future proceeds,
     which will likely increase as Space Shuttle retirement nears, or risk forfeiture of the
     FY 2010 funds and future funds as well.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To avoid forfeiture of FY 2010 Space Shuttle Program exchange/sale proceeds, we made the
following recommendations.

Recommendation 5. a. The Office of the Chief Financial Officer should determine how
much of the FY 2010 proceeds remain unobligated.

Recommendations 5.b. The Office of the Chief Financial Officer should proactively
coordinate with the Exploration Systems Mission Directorate’s Resources Management
Office to make timely use of the funds in accordance with the relevant Financial
Management Operating Procedures or, if necessary, request that GSA extend the time period
during which NASA may make use of the funds.

     Management’s Response. The Office of the Chief Financial Officer concurred with the
     recommendation and plans to have corrective action completed by September 30, 2011.
     The Office of the Chief Financial Officer also requested that we change the report by
     attributing the forfeiture of exchange/sale proceeds to “untimely and less-than-effective
     communication” instead of a “lack of knowledge of procedures.”

     Evaluation of Management’s Response. Management’s proposed actions are
     responsive to the intent of the recommendation. The recommendation is resolved and
     will be closed upon completion and verification of management’s corrective actions.
     Although we agree that there were instances of ineffective communication when the
     exchange/sale proceeds were forfeited, we also believe the facts discussed in the report
     support our conclusion that the overall process was managed ineffectively. Therefore, we
     do not believe that exchange/sale proceeds were forfeited solely as a result of ineffective
     communication and, accordingly, have not revised the report language.




16                                                                          REPORT NO. IG-11-016
RESULTS




                                                         OTHER MATTERS OF INTEREST

NASA Improperly Sold Property under Exchange/Sale Authority

  NASA entered into the February 2008 Memorandum of Agreement with GSA to sell
  Space Shuttle personal property pursuant to the exchange/sale authority in the United
  States Code (U.S.C.) and the FMR. 16 However, under this authority, certain personal
  property is not eligible for exchange or sale. Specifically, agencies are prohibited from
  engaging in sales or exchanges of clothing and firefighting equipment unless they receive
  a waiver from GSA. In addition, they are prohibited from engaging in the sale or
  exchange of weapons, and no waiver process is available for such transactions.

  Our records review disclosed that NASA sold or exchanged personal property worth
  $28,802 in the following three prohibited categories: Clothing, Individual Equipment, and
  Insignia; Firefighting, Rescue, and Safety Equipment; and Weapons (as shown in
  Table 2).

                   Table 2. Summary of Prohibited Exchanges and Sales in FY 2009

              Center            Category                       Transaction            Amount
              Johnson          Clothing                         Sale                  $     96
              Stennis          Firefighting Equipment           Sale                     6,806
              Kennedy          Firefighting Equipment           Exchange                 1,500
              White Sands      Weapons                          Exchange                20,400

                Total                                                                 $28,802


  The PDO at Johnson sold $96 in clothing items without obtaining a waiver from GSA.
  The proceeds from that sale were included in the proceeds forfeited to the U.S. Treasury
  at the end of FY 2010. At Stennis Space Center, the PDO sold $6,806 worth of
  firefighting, rescue, and safety equipment in FY 2009 without obtaining a waiver from
  GSA. In July 2010, the PDO sent the proceeds to the U.S. Treasury after receiving
  notification from the NASA Headquarters Logistics Division that an ineligible sale
  occurred. Kennedy also exchanged $1,500 worth of firefighting, rescue, and safety
  equipment in FY 2009 without obtaining a waiver from GSA.



  16
       Exchange/sale means to exchange or sell non-excess, non-surplus personal property and apply the
       exchange allowance or proceeds of sale in whole or in part payment for the acquisition of similar
       property (40 U.S.C. 503, “Exchange or Sale of Similar Items,” and 41 C.F.R. 102-39, “Replacement of
       Personal Property Pursuant to the Exchange/Sale Authority.”)



REPORT NO. IG-11-016                                                                                         17
                                                                                          RESULTS



     In addition, the White Sands Test Facility Supply Equipment Management Officer issued
     a procurement action with a gun dealer to exchange 68 handguns to offset the cost of new
     weapons for the White Sands Security Office. The procurement action totaled $30,630
     and the trade allowance was $20,400, which left White Sands to pay $10,230. However,
     the FMR specifically states that “under no circumstances will deviations be granted for
     FSC [Federal Supply Category] Class 1005, Guns through 30mm [millimeter].” The
     handguns that White Sands exchanged fall into this class. According to NASA’s
     Disposal and Warehouse Program Manager, it was apparent the White Sands’ Supply
     Officer was not aware that weapons were ineligible for exchange.

     Management Actions. We informed Agency officials of the sales and exchanges that
     occurred without the necessary waivers from GSA, as well as the prohibited exchange of
     the White Sands weapons. The responsible NASA personnel acknowledged that the
     exchange/sales did not comply with the FMR and initiated corrective actions.
     Specifically, the Agency’s Disposal and Warehousing Program Manager took the
     following steps:

        •   Sent an e-mail to Agency PDOs reminding them that exchange/sale authority is
            prohibited for certain listed groups of property unless NASA obtains a waiver and
            informing them that all waiver requests are to be sent to the Logistics Division for
            review and concurrence prior to submission to GSA for its approval.

        •   Contacted the system designer at NASA’s Enterprise Applications Competency
            Center to develop a system override that will allow items requiring a waiver to be
            listed in exchange/sales when a GSA waiver has been obtained.

        •   Met with the GSA Sales Director to discuss alterations to GSA’s Sales Automated
            System to prevent items from being sold without a waiver when one is required.

     We agree that the actions discussed above should reduce NASA’s risk of engaging in
     transactions that do not comply with the FMR. To ensure that these types of transactions
     do not occur in the future, we believe that NASA should continue to monitor the
     sale/exchange of prohibited items and follow up on the implementation of the corrective
     actions.




18                                                                          REPORT NO. IG-11-016
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from October 2009 through February 2011 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  Our overall audit objective was to determine whether NASA implemented effective
  controls over Space Shuttle Program personal property disposition. Initially, we focused
  our review on Kennedy’s personal property disposition processes. We interviewed key
  NASA Headquarters and Kennedy personnel involved in the Space Shuttle Program
  transition and retirement and/or the personal property disposition processes. We
  identified and reviewed relevant federal laws and regulations, NASA policies,
  procedures, plans, and guidance, and other criteria (a detailed list of items reviewed is
  provided on the following pages). We also reviewed relevant NASA websites for
  additional records and information, such as transition property assessments, status
  briefings, plans, reviews, and meeting charts and minutes. Based on our review at
  Kennedy, we expanded our scope to include Johnson. The methodology we used for the
  review is described below.

  Compliance with Export Control Regulations. At both Kennedy and Johnson, we
  interviewed the CEAs regarding roles and responsibilities and Center processes for
  making export control determinations, Center property disposal officers, industrial
  property managers, legal counsel, and personnel at the property disposal facilities. We
  interviewed a GSA sales representative regarding procedures used by that agency
  regarding export control. At Johnson, we also interviewed several property custodians
  and the Center security chief.

  Exchange/Sales through GSA. We reviewed the Memorandum of Agreement between
  NASA and GSA for the disposal of Space Shuttle Program personal property. At
  Kennedy and Johnson, we interviewed the Center PDOs, industrial property clearance
  specialists, and accounting managers. We also interviewed NASA Headquarters
  Logistics Division officials and GSA officials involved in the exchange/sales process.
  We reviewed Center sales records and reconciliations and traced a few sale items through
  the process from the time the items became available for sale to the time they were picked
  up by the purchaser. We also reviewed NASA records relating to sales proceeds and
  attempted to reconcile them to monthly sales reports.



REPORT NO. IG-11-016                                                                           19
                                                                                       APPENDIX A



     OIG Legal Counsel. To determine (1) whether selling to a foreign national in the United
     States is considered an export, (2) whether NASA or GSA is responsible for ensuring
     buyers are not foreign nationals, and (3) what the potential effect is of NASA selling
     prohibited items during an exchange/sale without receiving a waiver from GSA, we
     obtained a legal opinion from the Office of Counsel to the Inspector General. The OIG
     legal staff reviewed pertinent case laws, applicable federal and Agency regulations, and
     applicable workpapers.

     We identified and reviewed the following as applicable to our audit objectives:

     Federal Laws, Regulations, Policies, and Guidance

     Federal Property and Administrative Services Act of 1949 (Public Law 63-385, June 30,
     1949), as amended

     OMB Circular A-11, “Preparation, Submission, and Execution of the Budget,” July 2010

     NASA Federal Acquisition Regulation Supplement:

        •      Part 1804, “Administrative Matters”

        •      Part 1852, “Solicitation Provisions and Contract Clauses”

     FMR:

        •      41 C.F.R. 102-36, “Disposition of Excess Personal Property”

        •      41 C.F.R. 102-38, “Sale of Personal Property”

        •      41 C.F.R. 102-39, “Replacement of Personal Property Pursuant to the
               Exchange/Sale Authority”

        •      22 C.F.R. 120-130, ITAR

        •      15 C.F.R. 730-774, EAR

     U.S.C.:

        •      31 U.S.C. 1341, “Limitations on Expending and Obligating Amounts”

        •      31 U.S.C. 3302, “Custodians of Money”

        •      40 U.S.C. 503, “Exchange or Sale of Similar Items”

        •      40 U.S.C. 571, “General Rules for Deposit and Use of Proceeds”



20                                                                           REPORT NO. IG-11-016
APPENDIX A



  NASA Policies and Procedures

  NPD 1000.0A, “NASA Governance and Strategic Management Handbook,” August 13,
  2008

  NPR 2190.1, “NASA Export Control Program - Revalidated w/changes February 1, 2007”

  NPR 4100.1D, “NASA Materials Inventory Management Manual, (Revalidated 2/9/06)”

  NPR 4200.1G, “NASA Equipment Management Procedural Requirements,” March 30,
  2010

  NPD 4300.1B, “NASA Personal Property Disposal Policy (Revalidated 1/31/06)”

  NPR 4300.1A, “NASA Personal Property Disposal Procedural Requirements
  (Revalidated 2/17/06 with Change 1)”

  NPR 4310.1, “Identification and Disposition of NASA Artifacts (Revalidated w/Change 2
  1/31/06)”

  NPR 9250.1, “Property, Plant, and Equipment and Operating Materials and Supplies,”
  September 30, 2008

  NASA Interim Directive applicable to NPR 4300.1A, NM 4300-67, September 4, 2008

  NASA Financial Management Operating Procedure 9250.1-P01-A, “Exchange Sales of
  Space Shuttle Program Property Prior to October 1, 2009,” August 7, 2009

  NASA Financial Management Operating Procedure 9250.1-P02-A, “Exchange Sales of
  Space Shuttle Program Property,” October 1, 2009

  NASA Headquarters Transition Plans and Guidance

  JICB-001, “NASA Transition Management Plan For Implementing the U.S. Space
  Exploration Policy,” NASA Exploration Systems Mission Directorate and Space
  Operations Mission Directorate, August 2008

  “Space Shuttle Program Transition and Retirement Personal Property Disposition Plan,”
  November 2008

  iTCB-001, “NASA Infrastructure Transition Implementation Plan,” NASA Office of
  Infrastructure, June 2009

  Various whitepapers on Space Shuttle Program personal property disposition issues,
  Logistics Division, NASA Office of Infrastructure, 2008 and 2009




REPORT NO. IG-11-016                                                                      21
                                                                                    APPENDIX A



     “Space Shuttle Program Artifacts,” Information Pamphlet, NP-2009-02-565-HQ, NASA
     Headquarters, August 28, 2009

     Agreement between NASA and the Smithsonian Institution Concerning the Transfer and
     Management of NASA Historical Artifacts, August 20, 2008

     Procurement Information Circular 09-02, “Deviation and Special Property Disposition
     Instructions for Space Shuttle Related Contracts,” NASA Office of Procurement,
     January 14, 2009

     NASA Space Shuttle Program Plans and Requirements

     “Space Shuttle Program Plan,” Space Shuttle Program, April 4, 2008

     NSTS 07700, Volume XX (Revision A), “Space Shuttle Transition and Retirement
     Requirements,” Johnson Space Center, September 10, 2001

     NSTS 60576 (Change 1), “Space Shuttle Program Transition Management Plan,”
     Johnson Space Center, November 8, 2007

     NASA Center Transition Plans

     JSC-63921 (Revision A), “Johnson Space Center Transition Management Plan,” Johnson
     Space Center, January 2008

     KSC-PLN-1727 (Revision A-2), “Shuttle Processing Transition Management Plan,
     Launch Vehicle Processing Directorate,” Kennedy Space Center, September 7, 2009

     IMSB-Plan-JICB-001, “Marshall Space Flight Center Transition Plan,” Marshall Space
     Flight Center, December 1, 2008

     NASA Center and Contractor Procedures, Instructions, and Other Directives

     “Kennedy Space Center Personal Property Transfer/Excess Process,” KDP-KSC-P-3716,
     October 13, 2010

     “KSC Export Control Process,” KDP-KSC-P-2613, June 30, 2010

     Johnson Space Center Work Instruction 4300.1, “JSC Instructions for Excess and
     Disposal of Government Property,” September 28, 2009

     Johnson Space Center Work Instruction 2190.1, “JSC Export Compliance,” June 26, 2009

     L&M Technologies Procedure 6004, “Reutilization and Disposal,” July 27, 2009




22                                                                        REPORT NO. IG-11-016
APPENDIX A



  Use of Computer-Processed Data. We did not use computer-processed data to perform
  this audit.


Review of Internal Controls

  We reviewed internal controls for NASA’s personal property disposition processes
  relating to protection of export-controlled technology, receipt and use of sales proceeds,
  and sanitization of excessed information technology equipment. The control weaknesses
  we identified are discussed in this report and the previously issued report on information
  technology disposition issues (IG-11-009). Our recommendations, if implemented, will
  correct the identified control weaknesses.


Prior Coverage

  In December 2010, the NASA OIG issued a related report, and during the last 5 years, the
  Government Accountability Office (GAO) has issued two reports of particular relevance
  to the subject of this report. Unrestricted reports can be accessed over the Internet at
  http://oig.nasa.gov/audits/reports/FY11 and http://www.gao.gov.

  NASA Office of Inspector General

  “Preparing for the Space Shuttle Program’s Retirement: A Review of NASA’s Procedures
  for the Disposition of Information Technology Equipment” (IG-11-009, December 7,
  2010)

  Government Accountability Office

  “NASA: Agency Faces Challenges Defining Scope and Costs of Space Shuttle Transition
  and Retirement” (GAO-08-1096, September 2008)

  “Property Management: Lack of Accountability and Weak Internal Controls Leave NASA
  Equipment Vulnerable to Loss, Theft, and Misuse” (GAO-07-432, June 2007)




REPORT NO. IG-11-016                                                                           23
                       APPENDIX B




     MANAGEMENT COMMENTS




24            REPORT NO. IG-11-016
APPENDIX B




REPORT NO. IG-11-016   25
              APPENDIX B




26   REPORT NO. IG-11-016
APPENDIX B




REPORT NO. IG-11-016   27
              APPENDIX B




28   REPORT NO. IG-11-016
APPENDIX C




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Financial Officer
  Associate Administrator for International and Interagency Relations
  Associate Administrator for Exploration Systems Mission Directorate
  Associate Administrator for Space Operations Mission Directorate
  Assistant Administrator for Strategic Infrastructure
     Director, Logistics Division
  Director, Ames Research Center
  Director, Dryden Flight Research Center
  Director, Glenn Research Center
  Director, Goddard Space Flight Center
  Director, Jet Propulsion Laboratory
  Director, Johnson Space Center
  Director, Kennedy Space Center
  Director, Langley Research Center
  Director, Marshall Space Flight Center
  Director, Stennis Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs


REPORT NO. IG-11-016                                                           29
                                                                              APPENDIX C



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Organization, Efficiency, and Financial Management
     House Committee on Science, Space, and Technology
        Subcommittee on Investigations and Oversight
        Subcommittee on Space and Aeronautics




30                                                                  REPORT NO. IG-11-016
Major Contributors to the Report:
   Rebecca Sharek, Director, Space Operations Directorate
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   G. Paul Johnson, Project Manager
   Loretta Atkinson, Project Manager
   Julia Eggert, Lead Auditor
   Doug Orton, Lead Auditor
   Eugene Bauer, Auditor
   Nicole Frish, Auditor
   Jim Griggs, Auditor
   Jason Hensley, Auditor
   Barbara Moody, Auditor
   James Richards, Auditor
   Cedric Campbell, OIG Associate Counsel




REPORT NO. IG-11-016                                                         31
                                                                                     MARCH 15, 2011
                                                                       REPORT No. IG-11-016




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY11/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
